VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits
                                                                     Administration 

                                                                            Audit of 

                                                                         the Efforts to 

                                                                       Effectively Obtain 

                                                                       Veterans’ Service 

                                                                      Treatment Records




                                                                                              August 28, 2014
                                                                                               14-00657-261
              ACRONYMS AND ABBREVIATIONS

DoD           Department of Defense
HAIMS         Healthcare Artifacts and Image Management Solution
NPRC          National Personnel Records Center
OIG           Office of Inspector General
POC           Point of Contact
RAD           Release from Active Duty
RMC           Records Management Center
STR           Service Treatment Record
VA            Veterans Affairs
VALO          VA Liaison Office
VARO          Veterans Affairs Regional Office
VBA           Veterans Benefits Administration
VBMS          Veterans Benefits Management System




        To Report Suspected Wrongdoing in VA Programs and Operations: 

                             Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                  (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Audit of VBA’s
                    Efforts to Effectively Obtain Veterans’
                    Service Treatment Records
Why We Did This Audit                               Based on a review of 400 statistically selected
                                                    original disability compensation claims
This audit was Congressionally required by          completed during calendar year 2013, we
the Consolidated Appropriations Act, 2014.          identified delays within VBA’s processes.
The Act directed the Department of Veterans         Delays occurred with VARO staff
Affairs (VA) Office of Inspector General            establishing claims, requesting STRs, and
(OIG), in coordination with the Department of       receiving requested STRs.          Overall, we
Defense (DoD) OIG, to examine the                   attributed a total of about 131 days to these
processes and procedures for transmitting           actions. Delays occurred primarily because of
service treatment records (STRs) and                VBA’s focus on eliminating the disability
personnel records from DoD to VA.                   claims backlog. As a result of these delays,
                                                    DoD and VBA need to improve timeliness of
We focused our efforts on the Veterans              their current STR processes in order for VBA
Benefits Administration’s (VBA) processes           to achieve its timeliness goal of processing all
and timeliness of requesting paper STRs and         claims within 125 days.
providing them to VA Regional Office
(VARO) staff, who need the records to make          What We Recommended
decisions       on      veterans’      disability
compensation claims.        We also assessed        We made recommendations to the Under
initial timeliness of receiving electronic STRs     Secretary for Benefits to improve VBA’s
from DoD, which is a process that began in          processes of requesting and providing STRs
January 2014.                                       to VARO staff.

What We Found                                       Agency Comments
We determined that DoD is not timely in             The Under Secretary for Benefits concurred
providing VBA electronic STRs.         From         with our recommendations and provided an
January 1, 2014, through June 3, 2014, VBA          acceptable action plan. We will follow up on
submitted 7,278 STR requests to DoD for             the implementation of the corrective actions.
veterans who submitted claims and separated
from military service on or after
January 1, 2014.     Of those, DoD only
completed 2,111 requests (29 percent) and
5,167 requests (71 percent) were pending. Of
the 2,111 completed STR requests,
377 requests (18 percent) were received by                     LINDA A. HALLIDAY
VBA within 45 calendar days of the veterans’                Assistant Inspector General
separation from military service.       This                for Audits and Evaluations
occurred because DoD reported experiencing
challenges and delays implementing the
process of transmitting electronic STRs to
VBA.
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                Despite New Process of DoD Transmitting Electronic STRs, VBA 

                           Needs To Improve Timeliness of Its Paper STR Processes................................2
 

                           Recommendations .............................................................................................11
 

Appendix A                 Background .......................................................................................................12
 

Appendix B                 Scope and Methodology....................................................................................14


Appendix C                 Statistical Sampling Methodology ....................................................................16


Appendix D                 Under Secretary for Benefits Comments.......................................................... 20
 

Appendix E                 Office of Inspector General Contact and Staff Acknowledgments .................. 23
 

Appendix F                 Report Distribution........................................................................................... 24
 
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs



                    INTRODUCTION
Objective           This audit was Congressionally required by the Consolidated Appropriations
                    Act, 2014. The Act directed the Department of Veterans Affairs (VA) Office
                    of Inspector General (OIG), in coordination with the Department of Defense
                    (DoD) OIG, to examine the processes and procedures for transmitting service
                    treatment records (STRs) and personnel records from DoD to VA.

                    We focused our efforts on the Veterans Benefits Administration’s (VBA)
                    processes and timeliness of requesting paper STRs and providing them to
                    VA Regional Office (VARO) staff, who need the records to make decisions
                    on veterans’ disability compensation claims. We also assessed initial
                    timeliness of receiving electronic STRs from DoD, which is a process that
                    began in January 2014. Based on discussions with Senate Appropriations
                    Committee staff, we focused the audit on the transmission of STRs and did
                    not review the transmission of personnel records. DoD OIG focused on
                    determining whether DoD was providing timely and complete STRs to VA.

Service             STRs are veterans’ military health records that typically include medical
Treatment           history, physical and dental examinations, military entrance and discharge
Records
                    examinations, and outpatient treatments. STRs are a source of evidence
                    required to establish a relationship between a disability claim and an injury,
                    disease, or event during military service. When a servicemember separates
                    from military service, DoD is responsible for providing VBA the
                    individual’s complete and certified STR within 45 business days from the
                    release from active duty (RAD) date. VBA officials reported that VBA
                    tracks compliance based on 45 calendar days from the RAD date, and
                    discussions are ongoing with DoD to agree on a common standard.

                    Prior to 2014, DoD sent paper STRs to VBA’s Records Management Center
                    (RMC) or to the National Personnel Records Center (NPRC). Starting in
                    January 2014, DoD changed its processes, and military service departments
                    began scanning their paper STRs into DoD’s Healthcare Artifacts and Image
                    Management Solution (HAIMS). Once in HAIMS, electronic STRs are
                    uploaded to the Veterans Benefits Management System (VBMS) when
                    VARO staff establishes a veteran’s claim.

Other                  Appendix A provides additional background information.
Information
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides details on our statistical sampling methodology.




VA Office of Inspector General                                                                      1
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs



                    RESULTS AND RECOMMENDATIONS
Finding 	           Despite New Process of DoD Transmitting Electronic
                    STRs, VBA Needs To Improve Timeliness of Its Paper
                    STR Processes

                    We determined that DoD is not timely in providing VBA electronic STRs.
                    From January 1, 2014, through June 3, 2014, VBA submitted 7,278 STR
                    requests to DoD for veterans who submitted claims and separated from
                    military service on or after January 1, 2014. Of those, DoD only completed
                    2,111 requests (29 percent) and 5,167 requests (71 percent) were pending.
                    Of the 2,111 completed STR requests, DoD only provided 377 requests
                    (18 percent) to VBA within 45 calendar days of the veterans’ separation
                    from military service. This occurred because DoD reported experiencing
                    challenges and delays implementing the process of transmitting electronic
                    STRs to VBA.

                    Although in January 2014 DoD stopped sending paper STRs to VBA, this
                    new initiative is not expected to significantly help VBA in the near term.
                    VBA’s processes will continue to involve requesting and scanning paper
                    STRs because prior to January 1, 2014, DoD mailed paper STRs to RMC or
                    NPRC when a servicemember separated from military service. VBA does
                    not have plans to scan all paper STRs located at RMC and NPRC. It plans to
                    scan STRs only as they are requested. Thus, VBA will rely on its current
                    processes for the foreseeable future.

                    Based on a review of 400 statistically selected original disability
                    compensation claims completed during calendar year 2013, we identified
                    delays within VBA’s current processes. Delays occurred with VARO staff
                    establishing claims, requesting STRs, and receiving requested STRs.
                    Overall, we attributed a total of about 131 days to these actions, which
                    precede VARO staff having all key evidence needed to process veterans’
                    disability compensation claims. This period goes beyond the 125 days VBA
                    set as the timeliness goal for processing claims. VBA reported the average
                    days to complete original disability compensation claims in calendar
                    year 2013 was about 387 days and nearly 34 percent of that time could be
                    attributed to VARO staff establishing claims, requesting STRs, and waiting
                    to receive requested STRs.

                    Delays occurred primarily because of VBA’s focus on eliminating the
                    disability claims backlog. This focus had a negative influence on VBA
                    effectively monitoring its timeliness standard for establishing claims.
                    Further, VBA did not develop a timeliness standard for generating initial
                    requests for STRs. The process of requesting records for National Guard and
                    Reserve veterans also had a significant effect on receiving STRs, resulting in
                    delays.

VA Office of Inspector General                                                                      2
                                                Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Veterans who separated from military service prior to January 1, 2014, are
                    expected to make up a significant portion of VBA’s claims workload in the
                    foreseeable future. Therefore, VBA needs to improve timeliness within its
                    current STR processes in order to achieve its timeliness goal of processing
                    all claims within 125 days.

Initial Delays      Starting in January 2014, DoD began transferring STRs to VBA
With New            electronically for veterans separating from military service. To assess initial
Process
                    timeliness of this initiative, we reviewed VBA’s summary data on completed
                    and pending requests for electronic STRs from January 1, 2014, through
                    June 3, 2014. We determined that DoD is encountering delays providing
                    VBA with requested STRs. During this period, VBA submitted 7,278 STR
                    requests for veterans who submitted a claim and separated from military
                    service on or after January 1, 2014. Of those, DoD only completed
                    2,111 (29 percent) of VBA’s requests and 5,167 requests (71 percent) were
                    pending. Table 1 summarizes this information by each military service
                    department.

                             Table 1. Electronic STR Requests—Completed and Pending
                             Service                 STR                Completed            Pending
                           Department               Requests             Requests            Requests
                        Army                            3,317              521 (16%)       2,796 (84%)
                        Air Force                       1,318              849 (64%)          469 (36%)
                        Navy                            1,482              426 (29%)       1,056 (71%)
                        Marine Corps                    1,161              315 (27%)          846 (73%)
                        Total                           7,278           2,111 (29%)        5,167 (71%)
                        Source: VBA Compensation Service (as of June 3, 2014)
                        Note: Percent estimates are rounded.

Completed           Of the 2,111 completed STR requests, DoD provided only 377 (18 percent)
Requests Not        of VBA’s requests within 45 calendar days1 of the veterans’ separation from
Timely
                    military service. The remaining 1,734 requests were not completed timely.




                    1
                      VBA officials reported that it tracks compliance based on 45 calendar days even though
                    DoD’s standard is to provide STRs to VA within 45 business days. VBA officials further
                    reported that discussions are ongoing with DoD to agree to a common standard.

VA Office of Inspector General                                                                            3
                                              Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Table 2 summarizes this information by military service department.

                                   Table 2. Electronic STR Requests—Completed
                                                                     Completed           Completed
                           Service               Completed
                                                                    Timely (within       Late (over
                         Department             STR Requests
                                                                       45 days)           45 days)
                       Army                             521                   28 (5%)     493 (95%)
                       Air Force                        849             213 (25%)         636 (75%)
                       Navy                             426              68 (16%)         358 (84%)
                       Marine Corps                     315              68 (22%)         247 (78%)
                       Total                          2,111             377 (18%)       1,734 (82%)
                      Source: VBA Compensation Service (as of June 3, 2014)
                      Note: Percent estimates are rounded.

Pending             Of the 5,167 pending STR requests, only 923 (18 percent) requests were
Requests            pending within the 45 calendar days after the veterans’ RAD date. The
Overdue
                    remaining 4,244 (82 percent) requests were overdue because they were
                    pending for more than 45 calendar days from the veterans’ RAD date.
                    Table 3 summarizes this information by each military service department.

                                    Table 3. Electronic STR Requests—Pending
                                                                                          Pending
                                                                        Pending
                           Service               Pending STR                              Overdue
                                                                        Within
                         Department                Requests                             (more than 45
                                                                        45 Days
                                                                                           days)
                       Army                            2,796             300 (11%)      2,496 (89%)
                       Air Force                          469            167 (36%)        302 (64%)
                       Navy                            1,056             237 (22%)        819 (78%)
                       Marine Corps                       846            219 (26%)        627 (74%)
                       Total                           5,167             923 (18%)      4,244 (82%)
                      Source: VBA Compensation Service (as of June 3, 2014)
                      Note: Percent estimates are rounded.

                    DoD military service departments established Central Cells where paper
                    STRs are scanned into HAIMS and merged with electronic health
                    information stored in the Armed Forces Health Longitudinal Technology




VA Office of Inspector General                                                                          4
                                              Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Application2 after a servicemember separates from that military service. A
                    VBA Compensation Service official reported that the Army and Air Force
                    established a Central Cell in San Antonio, TX, and the Navy and Marine
                    Corps established a Central Cell in Chantilly, VA.          DoD reported
                    experiencing challenges and delays implementing the process of transmitting
                    electronic STRs to VBA. For example, DoD officials attributed delays to
                    initial setbacks in training and obtaining background checks for contractor
                    personnel.

Coordination        VBA officials stated that VBA currently provides DoD a report containing
With DoD            newly submitted electronic STR requests, newly completed STR requests,
                    and pending electronic STR requests. The officials said the report is
                    provided to help DoD prioritize its workload, and the data are used for
                    regular discussions between VBA and DoD. VBA officials further noted
                    that continued coordination with DoD is needed to ensure all electronic STR
                    documentation is provided in searchable, portable document format because
                    VBMS will only accept images in this format for the foreseeable future.

DoD’s               Although on January 1, 2014, DoD stopped sending paper STRs to VBA,
Initiative Not      this new initiative is not expected to significantly help VBA in the near term
Expected To
Significantly
                    with achieving its timeliness goal of processing all claims within 125 days.
Improve VBA         For veterans with a RAD date prior to January 1, 2014, VBA’s processes to
Timeliness in       obtain STRs will continue to rely on requesting paper STRs stored at RMC
the Near Term       and NPRC. Prior to January 1, 2014, DoD mailed paper STRs to RMC or
                    NPRC when a servicemember separated from military service.

                    VBA reported all VAROs started using VBMS to process claims
                    electronically by June 2013. In order to convert requested STRs into an
                    electronic format, VBA sends paper STRs located at RMC or NPRC to
                    contract vendors for scanning. This process eliminates sending paper records
                    to VAROs and provides VARO staff access to searchable, electronic STRs.
                    VBA does not have plans to scan all paper STRs located at RMC and NPRC.
                    It plans to scan STRs only as they are requested. Thus, VBA will rely on its
                    current processes for the foreseeable future.

Majority of         It is expected that VBA’s disability claims workload will continue to be
Veterans’ RAD       made up of veterans who separated from military service prior to the
Prior to 2010
                    electronic STR initiative. For example, we reviewed 400 statistically
                    selected original disability compensation claims completed during calendar
                    year 2013 and nearly 75 percent of the claims in our sample were for
                    veterans with a RAD date prior to 2010.




                    2
                      The Armed Forces Health Longitudinal Technology Application is an electronic medical
                    record system used by DoD medical providers who enter progress notes, put in orders, and
                    document procedures performed.

VA Office of Inspector General                                                                            5
                                             Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Table 4 summarizes estimates for veterans’ RAD dates, based on our claims
                    review and stratified by decades.

                                            Table 4. Veterans’ RAD Dates
                                                           Number From               Percent of
                                 Time of RAD
                                                             Universe                 Universe
                            1940s and 1950s                      12,300                5 percent
                            1960s and 1970s                      83,200               31 percent
                            1980s and 1990s                      57,300               22 percent
                            2000s                                40,500               16 percent
                            2010s                                66,200               26 percent
                          Source: VA OIG analysis of 400 statistically selected original disability
                          compensation claims
                          Note: Estimates are rounded.

Establishing        Based on our review of 400 statistically selected original disability
Claims and          compensation claims completed during calendar year 2013, we identified
Requesting
and Receiving
                    delays within VBA’s current processes. Delays occurred with VARO staff
STRs Can Be         establishing claims, requesting STRs, and receiving requested STRs.
Improved            Overall, we attributed a total of about 131 days to these actions, which
                    precede VARO staff having all key evidence needed to process veterans’
                    disability compensation claims. This period goes beyond the 125 days VBA
                    set as the timeliness goal for processing claims. VBA reported the average
                    days to complete original disability compensation claims in calendar
                    year 2013 was about 387 days and nearly 34 percent of that time could be
                    attributed to VARO staff establishing claims, requesting STRs, and waiting
                    to receive requested STRs.




VA Office of Inspector General                                                                        6
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    The following figure demonstrates average days for VARO staff establishing
                    claims, requesting STRs, and waiting to receive requested STRs that make
                    up the 131-day total for these actions, based on our claims review.

                                 Figure. VBA’s STR Process Time (Total 131 Days)

                                                                                Establishing 
                                                                                   Claims
                             Waiting To                           Average 
                              Receive                             15 Days
                           Requested STRs

                                                   Average 
                                                   48 Days

                                                                    Average 
                                                                    68 Days
                                                                                     Requesting 
                                                                                        STRs



                       Source: VA OIG analysis of 400 statistically selected original disability compensation
                       claims

Establishing        When VBA receives a veteran’s disability compensation claim, VARO staff
Claims              are required to establish the claim in VBA’s data systems within 7 days of
                    receipt. We determined VARO staff were not achieving this result as it took
                    an average of 15 days for VARO staff to complete this step. This is
                    significant because without establishing a claim, the VARO does not track or
                    assign it to staff to initiate development action. Additionally, VARO staff
                    must establish claims in VBA’s data systems before the claims are included
                    in VBA’s reported workload statistics. Table 5 summarizes time estimates
                    for establishing claims within VBA’s data systems, based on our claims
                    review.
                                            Table 5. Time To Establish Claims

                                 Establishing Claims                     Estimate for Universe

                           0 to 7 Days                                           72 percent
                           8 to 30 Days                                          17 percent
                           31 to 90 Days                                          6 percent
                           More Than 90 Days                                      5 percent
                         Source: VA OIG analysis of 400 statistically selected original disability
                         compensation claims
                         Note: Estimates are rounded.


VA Office of Inspector General                                                                                  7
                                             Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Requesting          VARO staff request STRs from the RMC, NPRC, and in some instances
STRs                from individual National Guard or Reserve units. We determined VARO
                    staff did not request STRs in a timely manner. Specifically, it took an
                    average of 68 days for VARO staff to request STRs when measured from the
                    date the claims were established. Since STRs are a major source of evidence
                    required for VARO staff to make decisions on veterans’ disability
                    compensation claims, it is vital to request the records in a timely manner to
                    minimize processing delays. Table 6 summarizes time estimates for
                    requesting STRs, based on our claims review.

                                           Table 6. Time To Request STRs

                                 Requesting STRs                     Estimate for Universe

                           0 to 7 Days                                      31 percent
                           8 to 30 Days                                     18 percent
                           31 to 90 Days                                    23 percent
                           More Than 90 Days                                28 percent
                         Source: VA OIG analysis of 400 statistically selected original disability
                         compensation claims
                         Note: Estimates are rounded.

Receiving STRs      We measured the time it took STRs to be available to the requesting VARO.
                    The measurement was determined by the date paper STRs were received at
                    the VARO or date electronic STRs were available in VBMS after scanning.
                    We identified delays in this process. Specifically, it took an average of
                    48 days to receive STRs when measured from the STR request date. VBA
                    reported that RMC staff prepares and sends most requested STRs to vendors
                    for scanning into VBMS. We recognize that the preparation, shipping, and
                    scanning process may negatively affect the overall timeliness of providing
                    STRs to the requesting VARO. However, the scanning process has
                    immediate and future benefits because it eliminates the need to send paper
                    records to VAROs and provides VARO staff access to searchable, electronic
                    STRs in VBMS.

                    The process of requesting records for National Guard and Reserve veterans
                    also had a significant effect on receiving STRs, resulting in delays. Paper
                    STRs for veterans who separated from National Guard or Reserve
                    components are not always located at RMC or NPRC because sometimes
                    DoD retained the records at the individual units. In these cases, VARO staff
                    are responsible for identifying the appropriate sources and points of contact
                    (POCs) for requesting and obtaining the STRs. VBA reported that there are
                    at least 108 individual National Guard locations and more than
                    4,400 individual Reserve units where paper STRs could potentially be
                    located. During interviews, VARO staff said that it was a challenge to
                    identify the appropriate sources and POCs for making these requests, which

VA Office of Inspector General                                                                        8
                                             Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    had a negative effect on the timeliness of the STR process.
                    Table 7 summarizes time estimates for receiving requested STRs, based on
                    our claims review.

                                     Table 7. Time To Receive Requested STRs
                            Receiving Requested STRs                 Estimate for Universe
                           0 to 7 Days                                      23 percent
                           8 to 30 Days                                     56 percent
                           31 to 90 Days                                    14 percent
                           More Than 90 Days                                 7 percent
                          Source: VA OIG analysis of 400 statistically selected original disability
                          compensation claims
                          Note: Estimates are rounded.

Causes for          Delays within VBA’s processes occurred primarily because of VBA’s focus
STR Process         on eliminating the disability claims backlog. This focus had a negative effect
Delays
                    on timeliness in other areas. VBA did not effectively monitor its timeliness
                    standard for establishing claims within 7 days of receipt. VBA also has not
                    developed a timeliness standard for making initial requests for STRs.

                    The process of requesting and receiving records for National Guard and
                    Reserve veterans also had a significant effect on receiving STRs, resulting in
                    delays. For this group of veterans, VARO staff reported difficulties in
                    identifying the appropriate sources and POCs for making STR requests when
                    records were not located at RMC or NPRC. VBA was not maximizing the
                    use of the Veterans Information Solution—a system VARO staff reported
                    would be beneficial to identify information on National Guard and Reserve
                    units. Access to the Veterans Information Solution was limited to only a few
                    staff at each VARO; many of the staff we interviewed who requested STRs
                    reported having limited or no access to the Veterans Information Solution.

VBA Pilot           VBA has recognized the issues and challenges with obtaining STRs for
Program             National Guard and Reserve veterans. Thus, VBA reported it is currently
                    testing a pilot program that centralizes the STR request process and places
                    the responsibility on DoD to validate veterans’ National Guard and Reserve
                    service and request records from the appropriate source.

                    Under the pilot program, VARO staff submits STR requests for National
                    Guard and Reserve veterans through the VA Liaison Office (VALO), which
                    is part of RMC. VALO staff contacts each military service’s POC for
                    assistance in obtaining STRs for National Guard and Reserve veterans. Each
                    POC is responsible for validating the veteran’s service, component, and unit.
                    Once this information is validated, the POC requests the STRs from the
                    appropriate source. When STRs are located, each military service scans and


VA Office of Inspector General                                                                        9
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    uploads the records into HAIMS, and an automatic notification is sent to the
                    requesting VARO that the STR is available.

                    A VBA Compensation Service official notified us that VBMS is not
                    configured to accept electronic STRs from HAIMS for these National Guard
                    and Reserve veterans. As a result, VBA Central Office staff needs to
                    manually retrieve the electronic STRs from HAIMS and upload them into
                    VBMS. The official further stated that VBA is waiting on system
                    modifications within VBMS to support the receipt of electronic STRs for
                    National Guard and Reserve veterans. VBA expects these modifications to
                    eliminate the manual process currently in place. Once VBA confirms a
                    release date for the system modifications, it plans to establish a timeline to
                    roll out the pilot program nationally.

Effects of STR      We attributed a total of about 131 days to VBA’s STR processes, which
Process             precede VARO staff having all key evidence needed to process veterans’
Delays
                    disability compensation claims. Though our audit did not focus on the
                    overall disability claims process, VBA reported the average days to complete
                    original disability compensation claims in calendar year 2013 was
                    about 387 days. If we consider that result for claims in our sample, VBA
                    could attribute nearly 34 percent of overall claims processing time to VARO
                    staff establishing claims, requesting STRs, and waiting to receive requested
                    STRs. Since VBA’s current STR process is expected to continue for an
                    indefinite period, VBA needs to make improvements in order to achieve its
                    goal of processing all claims within 125 days.

Conclusion          We determined that DoD is not timely in providing VBA electronic STRs.
                    Additionally, VBA needs to improve timeliness of its current processes for
                    requesting and providing STRs to VARO staff. It is expected that veterans
                    who separated from military service prior to January 1, 2014, will continue
                    to make up a significant portion of VBA’s claims workload in the
                    foreseeable future. Therefore, the process of requesting paper STRs from
                    RMC and NPRC remains important. Without addressing issues and making
                    improvements, VBA may continue to face challenges in achieving its
                    timeliness goal of processing all claims within 125 days. Therefore, DoD
                    and VBA need to make improvements within their current STR processes.




VA Office of Inspector General                                                                     10
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Recommendations

                    1.	 We recommended the Under Secretary for Benefits improve monitoring
                        to ensure Veterans Affairs Regional Office staff establish claims in the
                        Veteran Benefits Administration’s data systems within 7 days of receipt.

                    2.	 We recommended the Under Secretary for Benefits develop a timeliness
                        standard for Veterans Affairs Regional Office staff making initial
                        requests for service treatment records.

                    3.	 We recommended the Under Secretary for Benefits expand access to the
                        Veterans Information Solution to all Veterans Affairs Regional Office
                        staff who have the responsibility of requesting service treatment records
                        for National Guard and Reserve veterans.

                    4.	 We recommended the Under Secretary for Benefits complete testing of
                        the National Guard and Reserve pilot program and consider nationwide
                        implementation based on results of the testing.

Management          The Under Secretary for Benefits agreed with our findings and
Comments            recommendations and plans to address our recommendations by
and OIG
Response
                    December 31, 2015. To address timeliness of establishing claims, VBA is
                    relying on technological advancements to automate processes. This includes
                    implementing centralized mail processing to speed the intake of veterans’
                    compensation claims information into VBMS, instead of relying on a manual
                    process to establish claims within 7 days of receipt.

                    For servicemembers discharged on or after January 1, 2014, an automatic
                    request for STRs is sent to HAIMS upon claim establishment. For
                    servicemembers discharged prior to January 1, 2014, an automatic request is
                    sent to RMC upon claim establishment. While these automatic requests may
                    improve timeliness of making initial requests for STRs, we have continued
                    concerns regarding requests for STRs located at NPRC. VARO staff
                    manually request these STRs through the VA Liaison Office, and VBA
                    should explore options for automating these initial requests as well.

                    VBA plans to work with the Office of Information and Technology to
                    develop a more robust version of the Veterans Information Solution and
                    update its guidance to reflect that all VBA claims processors should have
                    access. VBA also plans to finalize the National Guard and Reserve pilot
                    program and deploy the process for requesting these STRs centrally.

                    The Under Secretary provided a responsive action plan to address our
                    recommendations. We will monitor VBA’s progress and follow up on its
                    implementation until all proposed actions are completed. Appendix D
                    provides the full text of the Under Secretary’s comments.



VA Office of Inspector General                                                                     11
                                              Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix A          Background

Interim Report      During this audit, we conducted a site visit at the VARO in
                    St. Petersburg, FL. We identified file storage and mail processing issues
                    requiring attention and action by the Under Secretary for Benefits. To allow
                    VBA the opportunity to take timely corrective action, we issued an interim
                    report, Efforts to Effectively Obtain Service Treatment Records and Official
                    Military Personnel Files (Report No. 14-00657-144, May 15, 2014). The
                    interim report included three recommendations to help ensure efficient file
                    storage and mail processing at the VARO. The Under Secretary for Benefits
                    concurred with our recommendations and provided suitable action plans.

NPRC and RMC        The NPRC, which is located in St. Louis, MO, houses veterans’ STRs and
                    personnel records. It maintains STRs for veterans who separated from
                    military service prior to 1994. VALO, which is physically located at the
                    NPRC, processes requests for STRs and personnel records from VARO staff.

                    VBA’s RMC, which is also located in St. Louis, MO, was established on
                    October 1, 1995, and is responsible for maintaining STRs for veterans who
                    separated from military service after 1994. Requests for STRs located at
                    RMC are made primarily through email correspondence or through an
                    automatic request when VARO staff establish a claim.

                    Table 8 summarizes locations for paper STRs, which is based on the
                    veteran’s military service department and RAD date.

                                          Table 8. Location of Paper STRs
                                   Service
                                                    Located at NPRC          Located at RMC
                                 Department

                           Army                     RAD date before          RAD date on/after
                                                    October 16, 1992         October 16, 1992

                           Air Force                RAD date before          RAD date on/after
                                                     May 1, 1994               May 1, 1994

                           Navy                     RAD date before          RAD date on/after
                                                    January 31, 1994         January 31, 1994

                           Marine Corps             RAD date before          RAD date on/after
                                                     May 1, 1994               May 1, 1994
                          Source: VBA Records Management Center




VA Office of Inspector General                                                                        12
                                          Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


VBA Scanning        VBA established the Veterans Claims Intake Program to streamline
                    processes for receiving records and data into VBMS and other VBA systems.
                    Scanning operations and the transfer of veteran data into VBMS are primary
                    intake capabilities that are managed by the Veterans Claims Intake Program.
                    VBA currently has contracts with two scanning vendors—CACI-ISS, Inc.
                    and Systems Made Simple, Inc. According to Veterans Claims Intake
                    Program staff, both scanning vendors scan about 2.4 million documents per
                    day.




VA Office of Inspector General                                                                    13
                                            Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix B          Scope and Methodology

Scope               We conducted our review from November 2013 through July 2014. The
                    scope of our audit focused on VBA’s processes for requesting and providing
                    STRs to VARO staff for initial disability compensation claims completed
                    during calendar year 2013. We also reviewed VBA’s summary data on
                    completed and pending STR requests in DoD’s HAIMS submitted from
                    January 1, 2014, through June 3, 2014. We coordinated our audit with DoD
                    OIG.

Methodology         To determine whether VBA was effectively receiving STRs to timely
                    process veterans’ disability compensation claims, we reviewed applicable
                    Federal laws, regulations, and VBA policies. We interviewed management
                    and staff from VBA Central Office, including Compensation Service,
                    Performance Analysis and Integrity, Office of Field Operations, and the
                    Veterans Claims Intake Program to obtain information on roles and
                    responsibilities related to the STR process.

                    We conducted site visits to three randomly selected VAROs located in
                    Waco, TX; Providence, RI; and St. Petersburg, FL. During the site visits, we
                    conducted physical tours of the facilities and viewed demonstrations of the
                    STR process. We also interviewed Veterans Service Center Managers,
                    Rating Veterans Service Representatives, Veterans Service Representatives,
                    Claims Assistants, and training staff.

                    We conducted site visits to RMC and NPRC in St. Louis, MO, to assess the
                    process of providing requested STRs to VARO staff. We also conducted a
                    site visit to one of VBA’s contracted scan vendors, Systems Made
                    Simple, Inc., to tour its facilities and interview management and staff
                    regarding the scanning process.

                    To measure and assess VBA timeliness for requesting and providing STRs to
                    VARO staff, we reviewed 400 statistically selected original disability
                    compensation claims completed during calendar year 2013. Appendix C
                    provides details on our statistical sampling methodology.

Fraud               The audit team assessed the risk that fraud, violations of legal and regulatory
Assessment          requirements, and abuse could occur during this audit. The audit team
                    exercised due diligence in staying alert to any fraud indicators by taking
                    actions such as:

                       Soliciting the OIG’s Office of Investigations for indicators
                       Interviewing VARO staff concerning potential fraudulent activity

                    We did not identify any instances of fraud during this audit.




VA Office of Inspector General                                                                      14
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Data Reliability    VBA Compensation Service staff provided us summary data on completed
                    and pending requests for electronic STRs since January 1, 2014 (as of
                    June 3, 2014), for veterans who served in the Army, Air Force, Navy, and
                    Marine Corps.

                    To support our audit findings and conclusions related to the process of
                    obtaining electronic STRs, we interviewed staff from VBA Central Office
                    regarding the security and validation of the data. Based on their responses,
                    we determined the data provided were sufficiently reliable for the purpose of
                    the audit.

                    To support our audit findings and conclusions related to the process of
                    requesting paper STRs, we relied on hard-copy data from veterans’ claims
                    folders, as well as electronic data in VBA’s Modern Award
                    Processing-Development system, VBMS, Personnel Information Exchange
                    System, and Share. We determined that the evidence was sufficiently
                    reliable for the purposes of the audit.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                     15
                                           Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix C          Statistical Sampling Methodology

                    We used statistical sampling to measure and assess VBA timeliness for
                    requesting and providing STRs to VARO staff who need the records to make
                    decisions on veterans’ disability compensation claims. Specifically, we
                    reviewed 400 statistically selected original disability compensation claims
                    completed during calendar year 2013.

Population          The population consisted of 263,128 original disability compensation claims
                    VBA completed during calendar year 2013.

Sampling            We segregated the population into two groups based on how VBA processed
Design              the claims. The first group, which contained 29,284 records, included claims
                    marked with the VBMS special issue flash to represent claims VBA
                    processed electronically.           The second group, which contained
                    233,844 records, included claims not marked with the VBMS special issue
                    flash to represent claims VBA processed in paper. We selected a statistical
                    random sample within each group. All records had a known chance of
                    selection, which allowed us to make estimates over the entire population. In
                    order to facilitate the stratification selection of records, we used the survey
                    select procedure in the Statistical Analysis Software. We generated random
                    numbers for the selection of records within each stratum.

Weights             We calculated estimates in this report using weighted sample data. Sampling
                    weights are computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling.

Estimates and       The margins of error and confidence intervals are indicators of the precision
Margins of          of the estimates. If we repeated this audit with multiple samples, the
Error
                    confidence intervals would differ for each sample, but would include the true
                    population value 90 percent of the time. The following series of tables
                    present estimates to the population including the estimate, margin of error,
                    lower 90 percent value, and upper 90 percent value.




VA Office of Inspector General                                                                     16
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Table 9 summarizes estimates for the number of veterans by decade based on
                    RAD dates.

                           Table 9. Statistical Estimates—Veterans’ RAD Dates (Value)
                                              Estimate       Margin of       Lower       Upper      Sample
                         RAD Date
                                              (Count)         Error           90%         90%        Size
                      1940s and 1950s            12,300           5,453       6,829     17,735           28
                      1960s and 1970s            83,200         12,796       70,382     95,974         128
                      1980s and 1990s            57,300         11,481       45,819     68,782           77
                      2000s                      40,500           9,964      30,528     50,456           60
                      2010s                      66,200         11,930       54,291     78,151         103
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.

                    Table 10 summarizes estimates for the percent of veterans by decade based
                    on RAD dates.

                         Table 10. Statistical Estimates—Veterans’ RAD Dates (Percent)
                                              Estimate       Margin of       Lower      Upper       Sample
                         RAD Date
                                              (Percent)       Error           90%        90%         Size
                      1940s and 1950s               5            2.1            2.6        6.8           28
                      1960s and 1970s              31            4.9          27.1       37.0          128
                      1980s and 1990s              22            4.4          17.7       26.5            77
                      2000s                        16            3.8          11.8       19.4            60
                      2010s                        26            4.6          20.9       30.1          103
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.




VA Office of Inspector General                                                                                 17
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Table 11 summarizes estimates for average times within VBA’s STR
                    processes.

                                 Table 11. Statistical Estimates—STR Process Delays

                         Step in VBA          Estimate      Margin of       Lower       Upper       Sample
                           Process             (Days)        Error           90%         90%         Size
                       Establishing
                                                   15              6             8          21         121
                       Claims
                       Requesting STRs             68            21             47          90         121
                       Receiving STRs              48            27             21          75         121
                       Total STR
                                                  131            35             96        167          121
                       Process
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.

                    Table 12 summarizes estimates for time to establish claims.

                                 Table 12. Statistical Estimates—Establishing Claims

                         Establishing         Estimate      Margin of        Lower      Upper       Sample
                           Claims             (Percent)      Error            90%        90%         Size
                       0 to 7 Days                72             4.8          67.5        77.1         222
                       8 to 30 Days               17             4.1          13.0        21.2           71
                       31 to 90 Days                6            2.4           3.2          8.1          28
                       More Than 90
                                                    5            2.1           2.9          7.0          37
                       Days
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.




VA Office of Inspector General                                                                                 18
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                    Table 13 summarizes estimates for times to request STRs.

                                  Table 13. Statistical Estimates—Requesting STRs
                                              Estimate      Margin of        Lower      Upper       Sample
                      Requesting STRs
                                              (Percent)      Error            90%        90%         Size
                       0 to 7 Days                 31            5.7           25.9        37.2          73
                       8 to 30 Days                18            4.6           12.9        22.2          47
                       31 to 90 Days               23            4.9           17.7        27.5          89
                       More Than 90
                                                   28            5.5           22.8        33.8          70
                       Days
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.

                    Table 14 summarizes estimates for time to receive requested STRs.

                            Table 14. Statistical Estimates—Receiving Requested STRs
                                              Estimate       Margin of       Lower       Upper      Sample
                       Receiving STRs
                                              (Percent)       Error           90%         90%        Size
                     0 to 7 Days                   23            5.2           17.8        28.2          70
                     8 to 30 Days                  56            6.2           50.1        62.5        133
                     31 to 90 Days                 14            4.2             9.4       17.7          47
                     More Than 90
                                                     7           3.3             3.9       10.5          15
                     Days
                      Source: VA OIG analysis of 400 statistically selected original disability compensation
                      claims
                      Note: Estimates are rounded.




VA Office of Inspector General                                                                                 19
                                                        Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix D               Under Secretary for Benefits Comments



                Department of                                         Memorandum
                Veterans Affairs

        Date:       August 8, 2014

       From:        Under Secretary for Benefits (20)

        Subj:       OIG Draft Report—Audit of VBA’s Efforts to Effectively Obtain Service Treatment
                    Records
         To:        Assistant Inspector General for Audits and Evaluations (52)



                1. 	 Attached is VBA’s response to the OIG draft report: Audit of VBA’s Efforts to Effectively
                     Obtain Service Treatment Records.


                2. 	 Questions may be referred to Christine Ras, Program Analyst, at 461-9057.




                 Attachment




VA Office of Inspector General                                                                                   20
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


                                                                                                Attachment

                              Veterans Benefits Administration (VBA)

                                  Comments on OIG Draft Report

               Audit of VBA’s Efforts to Effectively Obtain Service Treatment Records



VBA concurs with OIG’s findings in the draft report and provides the following comments in
response to the recommendations:

Recommendation 1: We recommended the Under Secretary for Benefits improve monitoring to ensure
Veterans Affairs Regional Office staff establish claims in the Veteran Benefits Administration’s data
systems within 7 days of receipt.

VBA Response: Concur. To address the need to timely control claims establishment, VBA is relying on
technological advancements to automate processes.

VBA currently receives mail from a variety of sources in various formats, templates, fonts, and methods.
Incoming mail is handled multiple times before it is available to be processed. VBA is implementing
centralized mail (CM) processing to speed the intake of Veterans’ compensation claims information into
the Veterans Benefits Management System (VBMS), instead of relying on a manual process to establish
claims within seven days of receipt. By transforming from decentralized mail intake at the regional offices
(ROs) to a more efficient CM operation, VBA will be able to reduce processing time, increase mail
monitoring, and improve timeliness of claims establishment.

CM has deployed to 42 ROs and rollout will continue to the remaining ROs in the upcoming months. It is
expected the CM process will auto-establish claims filed on VA Form 21-526, Veteran’s Application For
Compensation and/or Pension, by December 2014. The auto-establish feature will continue to be
associated with additional VA forms throughout 2015.

Target Completion Date: December 31, 2015


Recommendation 2: We recommended the Under Secretary for Benefits develop a timeliness standard
for Veterans Affairs Regional Office staff making initial requests for service treatment records.

VBA Response: Concur. VBA’s transformation is ending the reliance on the outmoded paper-intensive
processes that thwart timely and accurate claims processing. In June 2014, VA and the Department of
Defense (DoD) transitioned to the electronic transmission of the certified complete service treatment
records (STRs) from DoD’s Healthcare Artifacts and Images Management Solution (HAIMS) system and
VBA’s VBMS. For Servicemembers discharged on or after January 1, 2014, an automatic request for
STRs is sent to HAIMS upon claim establishment.            For Servicemembers discharged prior to
January 1, 2014, an automatic request for STRs is sent to the Records Management Center upon claim
establishment. VBA continues to work with DoD to establish a streamlined process to request STRs for
National Guard and Reserve members. All of these processes aim to reduce claims processing
timeliness by having systems automatically request STRs upon claim establishment.

Target Completion Date: March 31, 2015


Recommendation 3: We recommended the Under Secretary for Benefits expand access to the Veterans
Information Solution to all Veterans Affairs Regional Office staff who have the responsibility of requesting
service treatment records for National Guard and Reserve veterans.

VBA Response: Concur. In November 2004, VBA nationally deployed the Veterans Information Solution
(VIS) to verify military service. The manual reference M21-1 Manual Rewrite Part III, Subpart ii,


VA Office of Inspector General                                                                           21
                                               Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Chapter 6, Section 6, Topic c (Attachment A*) identifies VIS as an acceptable method of verifying service.
However, VBA noticed a concern with Fast Letter 04-32, Regional Office and VA Medical Center Access
to the Veterans Information Solution (VIS) for Electronic Service Member Discharge Data, (Attachment
B*) limiting ROs to only two VIS users. Compensation Service plans to update guidance in this fast letter
by September 1, 2014, to reflect that all claims processors should be granted access to VIS. VBA is also
working with the Office of Information and Technology to develop and deploy a more robust version of
VIS to all ROs. VBA expects to deploy a more robust version of VIS to all ROs by December 31, 2014.
Target Completion Date: December 31, 2014

*Note: Attachments A and B not included in this report.


Recommendation 4: We recommended the Under Secretary for Benefits complete testing of the National
Guard and Reserve pilot program and consider nationwide implementation based on results of the
testing.

VBA Response: Concur. On January 6, 2014, VBA began a pilot program that will centralize requests
for National Guard and Reserve records to DoD. The pilot program is still ongoing to establish processes
for electronic requests and electronic receipt of National Guard and Reserve records. The pilot program
consists of three phases:

      	   Phase 1 involved the proof-of-concept and testing that occurred between the ROs, VA Liaison
           Office (VALO), and DoD. During this phase, two system modifications were identified and
           initiated to accommodate electronic processing. Phase 1 ended on May 31, 2014.
      	   Phase 2 involved system modifications which allowed ROs to electronically submit requests for
           National Guard and Reserve records to VALO, and for VALO to consolidate the requests for
           electronic delivery to DoD. Phase 2 ended on May 31, 2014.
      	   Phase 3 involves major system enhancements that will allow VA to retrieve National Guard and
           Reserve electronic STRs that DoD uploads into HAIMS, and then ingest those images into the
           VBMS eFolder for claims adjudication. This functionality within VBMS is anticipated to be
           released March 2015. It will require approval and implementation of an additional 14 full-time
           employees at the VALO in St. Louis to process requests for STRs for all 56 VA Regional
           Offices.

The deployment will eliminate the need for ROs to mail letters to over 4,000 National Guard and Reserve
units to request records. Instead, ROs will submit these requests electronically to the centralized location
at VALO.

Target Completion Date: March 30, 2015




VA Office of Inspector General                                                                           22
                                         Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	             For more information about this report, please
                                                contact the Office of Inspector General at
                                                (202) 461-4720.

                      Acknowledgments	          Nick Dahl, Director
                                                Stephen Bracci
                                                Michael Cannata
                                                John Cintolo
                                                Ron Comtois
                                                Lee Giesbrecht
                                                Karen Hatch
                                                C. Russell Lewis
                                                Jason D. Schuenemann
                                                Joseph Vivolo




VA Office of Inspector General                                                                   23
                                          Audit of VBA’s Efforts to Effectively Obtain Veterans’ STRs


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




               This report is available on our Web site at ww.va.gov/oig.




VA Office of Inspector General                                                                    24
